Case: 20-40583

Document: 00515958238

Page: 1

Date(gjed: 07/29/2021^^

Stniteij States: Court of Appeals
for tfjr Jftftf) Circuit
No. 20-40583

Michael Geoffrey Peters,
Plaintiff—Appellant,
versus
State of Texas; Texas Department of Criminal Justice;
Susan King, Mailroom Supervisor, Regional Director Lorie
Davis; Warden Auderey England; Annaleas
Frushamerritt,
Defendants—Appellees.

Appeal from the United States District Court
for the Eastern District of Te :xas
USDG'No76^19-CV-424

ORDER:
Michael Geoffrey Peters, Texas prisoner # 2019190, filed a 42 U.S.C.
§ 1983 complaint, which was dismissed without prejudice for failure to
prosecute, failure to obey an order of the court, and failure to effect service
of process. Peters now moves for leave to proceed in forma pauperis (IFP)
on appeal. In seeking authorization to proceed IFP in the present appeal,
Peters argues that the three-strikes bar does not apply to actions asserting
First Amendment violations.

Case: 20-40583

Document: 00515958238

Page: 2

Date Filed: 07/29/2021

No. 20-40583

To proceed IFP on appeal, a movant must demonstrate both financial
eligibility and the existence of a nonfrivolous issue for appeal. 28 U.S.C.
§ 1915(a)(1); Carson v. Polley, 689 F.2d 562,586 (5th Cir. 1982); Adkins v. E.I.
DuPont deNemours & Co., 335 U.S. 331, 339 (1948). Also, under 28 U.S.C.
§ 1915(g), a movant is barred from proceeding IFP in any civil action or
appeal absent a showing that he “is under imminent danger of serious
physical injury.” § 1915(g); seeAdepegba v. Hammons, 103 F.3d 383,388 (5th
Cir. 1996).
The motion to supplement his IFP motion is GRANTED. Because
Peters has not made the required showing, his IFP motion is DENIED. See
Carson, 689 F.2d at 586. All other outstanding motions are DENIED.
Peters has 30 days from the date of this order to pay the full appellate filing
fee of $505 fee or submit an IFP motion addressing his issues for appeal,
including the issue whether § 1915(g) applies to First Amendment claims,
and his financial eligibility. The clerk of this court is directed to dismiss the
appeal for want of prosecution if Peters does not comply. See 5th Cir. R.
42.3.1.2.

Kurt D. Engelmardt
United States Circuit Judge

2

Case: 6:19-cv-00424-JDK-JDL

Document #: 3-1

Date Filed: 09/27/2019

Page 1 of 3

'6.
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
MICHAEL PETERS

§

v.

§

STATE OF TEXAS, ET AL.

§

CIVIL ACTION NO. 6:19cv424

ORDER
On September 3, 2019, Plaintiff Michael Peters filed a complaint which referred to a
conspiracy against him by the State of Texas, alleged thefts of his mail, a “statewide racketeering
coverup,” and the conditions of confinement at the Beto Unit during the time he spent there while
awaiting a court hearing in a separate lawsuit. The named Defendants are the State of Texas, the
Texas Department of Criminal Justice, Hodge Unit mailroom supervisor Susan King, TDCJ-CID
Director Lorie Davis, and Warden Audrey England.
Peters states that Secretary of Energy Rick Perry was involved in racketeering crimes while
Governor of Texas and is now in a position to destabilize the U.S. Government at the Department
of Energy. The State of Texas has thwarted all of Peters’ attempts to expose the cover-up of this
racketeering enterprise and now continues this effort by stealing all of Peters’ mail warning the
Government of these crimes. Peters contends that he has been silenced as part of a cover-up
involving Texas Childrens Hospital and Baylor Hospital, who funded Perry ’ s governorship in Texas
and are likely involved in the racketeering at the Department of Energy.
Although Peters maintains that he has attempted to expose these alleged wrongs, he claims
that the mailroom staff at the Hodge Unit has refused to allow him to send mail to the “PrisonV^atch
Dog Group etc.” because the mail was exposing them for tampering with his mail regarding the
State’s crimes and liabilities. As a result, Peters asserts that he is being prevented from warning the
Government about a potential threat to national security involving Perry. He states that he is also
1

Case: 6:19-cv-00424-JDK-JDL

Document#: 3-1

Date Filed: 09/27/2019

Page 2 of 3

being prevented from exposing the State of Texas for political, judicial, and racketeering crimes
involving both Perry and the judges and courthouse staff in Montgomery County, and from warning
prison watchdog groups about these cover-ups.
Peters also contends that he is being refused federal protection to safeguard his life while he
exposes state-wide corruption and racketeering crimes. All of his law books have been confiscated
and he has been sent to the Hodge Unit, which is for mental patients, even though he is not a mental
patient.

i

N

V

*
A review of Peters’ lawsuit shows that he lacks sufficient factual specificify-to show that he

has the basis for a potentially meritorious civil rights lawsuit. His claim of a large-scale government
conspiracy against him appears frivolous and fancifid absent some sort of substantiating factsJAee
-------- — ---------------------------------------------------------------—"""

Walsh v. Comey. 118 F.Supp.2d 22, 23 (D.D.C. 2015). Thus, it is by no means clear that Peters has
shown constitutionally cognizable harm in the fact that he appareirjlyThas not been able to contact""""^,
the CIA with regard to his claims of a racketeering conspiracy in the state and federal governments.
See, e.s.. Jones v. Greninger. 288 F.3d 322, 325 (5th Cir. 1999). While Peters also complains of the
conditions of confinement at the Beto Unit, he does not make clear who he is suing in connection
with this claim.

Wr;

Peters is reminded that the term "frivolous" means that a complaint lacks an arguable basis
in law or fact; a complaint is legally frivolous when it is based upon an indisputably meritless legal
theory. Neitzke v. Williams. 490 U.S. 319. 325-27. 109 S.Ct. 1827, 104 L.Ed.2d 338 (1989). A
complaint fails to state a claim upon jvhich relief may be grantedVhere it does not allege sufficient
facts that, taken as true, state a claim that is plausible on its face and thus^do^snotraise a rightto^)
rehefjdi&j^he speculative level. Montoya v. FedEx Ground Packaging System Inc.. 614F.3d 145,
149 (5th Cir. 2010), citins Bell Atlantic Corp. v. Twomblv. 550 U.S. 544, 555,127 S.Ct. 1955,167
L.Ed.2d 929 (2007). A claim has factual plausibility when the pleaded factual content allows the
court to draw thjrfeasonable inferencethat the defendant is liable for the misconduct alleged.
»■<£-

----- --------------------^

•mOmm~~

----------- ---

----- --

Hershev v. Energy Transfer Partners. L.P.. 610F.3d239,245 (5th Cir. 20101: Ashcroft v. Iqbal. 556
2

Case: 6:19-cv-00424-JDK-JDL

Document #: 3-1

Date Filed: 09/27/2019

Page 3 of 3

U.S. 662,678, 129S.Ct. 1937, 1949(2009). This plausibility standard is not akin to a probability
requirement, but ask^fbrmore than a possibilitythat the defendant has acted unlawfully. Twomblv.
550 U.S. at 556.
Although all well-pleaded facts are taken as true, the district court need not accept as true
conclusory allegations, unwarranted factual inferences, or legal conclusions. Whatley v. Coffin, 496
F.App’x 414,2012U.S.App. LEXIS 22894,2012 WL 5419531 (5th Cir.,November 7,2012), citing
Plotkin v. IP Axess Inc„ 407 F.3d 690, 696 (5th Cir. 2005).
Instead of having his lawsuit outright dismissed, Peters should be given another opportunity
to allege facts providing a basis for a civil rights lawsuit. See Eason v. Thaler. 14 F.3d 8 (5th Cir.
1994). It is accordingly
ORDERED that Peters shall hav^thhty (30) days^from receipt of this notice to file an
amended complaint stating specific facts to support his claims showing that he has a basis for a
potentially meritorious civil rights lawsuit. In this repleading, Peters shall specify how and when
each defendant was personally involvedTp the various incidents made the basis of his claims. He
shall explain how his constitutional rights were violated. Failure to replead in conformity with this
order may result in dismissal of the complaint. It is further
ORDERED that the Clerk shall not accept any other documents in this case, except for a
motion for an extension of time, until the Plaintiff complies with this Order.

So ORDERED and SIGNED this 27th day of September, 2019.

UNITED STATES MAGISTRATE JUDGE

3

Case: 6:19-cv-00424-JDK-JDL

Document #: 15-1

Date Filed: 03/26/2020

Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
§
§
§
§
§
§
§
§
§
§

MICHAEL GEOFFREY PETERS,
Plaintiff,
v.
STATE OF TEXAS, ET AL.,
Defendants.

Case No. 6:19-CV-424-JDK-JDL

ORDER ADOPTING REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Plaintiff Michael Geoffrey Peters, an inmate proceeding pro se, filed this civil rights
lawsuit pursuant to 42 U.S.C. § 1983. The case was referred to United States Magistrate Judge
John D. Love pursuant to 28 U.S.C. § 636. On February 6, 2020, the Magistrate Judge issued a
Report and Recommendation (Docket No. 10), recommending that Plaintiff’s action be dismissed
against Defendants State of Texas, Texas Medical Branch, Lorie Davis, Annales Frushamerritt,
Kimberly Drew, Mary Linson, Warden England, Captain Black, and Sgt. King. Id. at 8. Plaintiff
_

^ ^____ ^

^ _______

_

.jj—^

^

filed objections on March 9, 2020, and March 13, 2020. Docket Nos. 12-13.
The Court overrules Plaintiff’s objections. Plaintiff’s only specific objection is that his
pleadings crossed “the line from ‘conceivable to plausible’” because his exhibits and evidence
prove the existence of an illegal cover-up by Defendants. Docket No. 13 at 12-14. Plaintiff,
however, does not dispute the Magistrate Judge’s proper conclusions that: (1) Plaintiff’s claims
against the State of Texas and the Texas Medical Branch are barred by the Eleventh Amendment;
(2) Plaintiff’s claims that Lorie Davis intentionally transferred and controlled Plaintiff were
speculative at best and conclusory; (3) Plaintiff failed to state a claim against Frushamerritt, Drew,

Page 1 of 3

Case: 6:19-cv-00424-JDK-JDL
c-

Document#: 15-1

Date Filed: 03/26/2020

Page 2 of 3

'

and Linson because Plaintiff did not specify their personal involvement; and (4) Plaintiff’s claims
against Warden England, Captain Black, and Sgt. King appear in another pending lawsuit filed by
Plaintiff and therefore may be dismissed without prejudice to Plaintiff’s right to pursue these
claims in his other case. See, e. g., Moore v. La. Bd. of Elementary & Secondary Educ., 743 F.3d
959, 963 (2014) (“Federal courts are without jurisdiction over suits against a state, a state agency,
or a state official in his official capacity unless that state has waived its sovereign immunity or
Congress has clearly abrogated it.”); Morales v. Horn, No. G-05-0560, 2008 WL 4746763, at *2
n.7 (S.D. Tex. Oct. 28, 2008) (noting that the State Classification Committee “is responsible for
‘reviewing and approving Institutional offenders for all inter-unit transfers’” (citation omitted));
Murphy v. Kellar, 950 F.2d 290, 292 (5th Cir. 1992) (“[A] plaintiff bringing a section 1983 action
must specify the personal involvement of each defendant.”).
Having made a de novo review of the objections raised by Plaintiff to the Magistrate
Judge’s Report, the Court is of the opinion that the findings and conclusions of the Magistrate
Judge are correct and Plaintiff’s objections are without merit. The Court therefore adopts the
findings and conclusions of the Magistrate Judge as the findings and conclusions of the Court.
Accordingly, it is hereby ORDERED that the Report and Recommendation (Docket No.
10) be ADOPTED. It is further
ORDERED that Plaintiff’s claims against Defendants State of Texas and Texas
Medical Board are DISMISSED WITH PREJUDICE for failure to state a claim upon which
relief may be granted. It is further
ORDERED that Plaintiff’s claims against Defendants Lorie Davis, Annales Frushamerritt,
Kimberly Drew, Mary Linson, Warden England, Captain Black, and Sgt. King are DISMISSED

Page 2 of 3

1

Case: 6:19-cv-00424-JDK-JDL

•• -

Document #: 15-1

Date Filed: 03/26/2020

Page 3 of 3

WITHOUT PREJUDICE. The dismissal of these claims and Parties shall have no effect upon
Plaintiffs claims against Defendant Susan King.
So ORDERED and SIGNED this 26th day of March, 2020.

JERf MY DJKERNODEE
UNITED STATES DISTRICT JUDGE

A

Page 3 of 3

